IN THE SUPREME COURT OF THE UNITED STATES
October Term 2020
CASE NO. 20-6585
______________________________________
Eleventh Circuit Court of Appeals No. 17-14370
Southern District of Florida No. 16-cr-20836-PCH

BERNARD MOORE,
Petitioner,
vs.
THE UNITED STATES OF AMERICA,
Respondent.

MOTION TO DISMISS OR WITHDRAW
THE PETITION FOR A WRIT OF CERTIORARI
WITH LEAVE TO TIMELY FILE A PETITION
THAT INCLUDES ALL OF PETITIONER’S ISSUES
With Incorporated Certificate of Word Count
SHERYL JOYCE LOWENTHAL
CJA Counsel for Petitioner Bernard Moore
Email: sjlowenthal@appeals.net
Florida Bar No. 163475
9130 S Dadeland Blvd. Suite 1511
Miami, Florida 33156-7851
Ph: 305-670-3360

MOTION TO DISMISS OR WITHDRAW
PETITION FOR A WRIT OF CERTIORARI
WITH LEAVE TO TIMELY FILE A PETITION
THAT INCLUDES ALL OF PETITIONER’S ISSUES
Petitioner Bernard Moore, through counsel, and pursuant to Rule 46.2(a) of
the Rules of the Supreme Court of the United States, files this Motion to Dismiss
the Petition that he filed in this cause on December 4, 2020. Petitioner is the only
petitioner. He does not owe damages or costs. He was found by the Southern
District of Florida to be an indigent criminal defendant and proceeded on direct
appeal with representation of undersigned CJA Appellate Counsel. Petitioner filed
a Motion to Proceed In Forma Pauperis in the present proceedings.
The record shows that the final judgment of the United States Court of
Appeals for the Eleventh Circuit was entered in March, 2020, and that a timelyfiled petition for rehearing was denied by the Eleventh Circuit Court of Appeals on
September 10, 2020. Therefore, Petitioner is well-within the filing deadline of 150
days for filing a Petition for Writ of Certiorari under this Court’s Order extending
filing deadlines due to the Covid pandemic.
Petitioner intends to immediately file another Petition for Writ of Certiorari
that will include all issues including one that was unintentionally omitted from his

1

Petition that was electronically filed in this matter on December 4, 2020 (Case No.
20-6585), that is the subject of this motion.
Wherefore, Petitioner respectfully asks the Court to dismiss the Petition
filed in this cause, and to allow him to timely-file a Petition that will include all
issues that should have been raised in the present Petition.
Respectfully submitted,
/s/ Sheryl J. Lowenthal
Sheryl J. Lowenthal, Atty at Law
CJA Counsel for Bernard Moore
on Petition for Writ of Certiorari

Dated: December 16, 2020

Certificate of Word Count
Counsel certifies that according to the Word for Windows program on which
it was prepared, the foregoing motion contains no more than 297 words.
Respectfully submitted,
/s/ Sheryl J. Lowenthal
Sheryl J. Lowenthal, Atty at Law
CJA Counsel for Bernard Moore

2
North Florida Office: 221 East Government Street
Phone: 850-912-6710

Pensacola, Florida 32502

